 DEPARTMENT OF HOMELAND SECURITY

  Ofﬁce of Inspector General



      An Evaluation of DHS Activities to 

        Implement Section 428 of the 

       Homeland Security Act of 2002




Ofﬁce of Inspections, Evaluations, & Special Reviews


OIG-04-33                        August 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
                                                                                                                         Contents


  Introduction......................................................................................................................................3

  Results in Brief ................................................................................................................................3

  Background ......................................................................................................................................7

  Purpose, Scope, and Methodology...................................................................................................8

  Findings


             Deployment of Visa Security Ofﬁcers .................................................................................9

             VSO and Consular Ofﬁcer Training ..................................................................................11


             Consular Ofﬁcer Performance Standards...........................................................................13

             Role of Foreign Nationals..................................................................................................13

             Assignment of Visa Security Ofﬁcers ................................................................................14

             Visa Security Operations in Saudi Arabia ..........................................................................17


Appendices

  Appendix A:                 Section 428 of the Homeland Security Act of 2002 ........................................24
  Appendix B:                 Management Comments ..................................................................................29
  Appendix C:                 OIG Evaluation of Management Comments....................................................39
  Appendix D:                 Recommendations............................................................................................45
  Appendix E:                 Major Contributors to this Report....................................................................47
  Appendix F:                 Report Distribution ..........................................................................................48




      An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002                                              Page 1
Contents



Abbreviations

BTS             Directorate for Border and Transportation Security
CBP             Customs and Border Protection - a BTS component
CIS             Citizenship and Immigration Services - a DHS component
DHS             Department of Homeland Security
DOS             Department of State
FBI             Federal Bureau of Investigation
ICASS           International Cooperative Administrative Support Services
ICE             Immigration and Customs Enforcement - a BTS component
INS             Immigration & Naturalization Service
MOU             Memorandum of Understanding
NSEERS          National Security Entry-Exit Registration System
NTC             National Targeting Center, Reston, Virginia – a CBP component
OIE             Ofﬁce of International Enforcement - a BTS component
OIG             Ofﬁce of Inspector General - a DHS component
PCS             Permanent Change of Station (assignment)
TDY             Temporary Duty (assignment)
TPO             Transition Planning Ofﬁce
VSO             Visa Security Ofﬁcer
VSU             Visa Security Unit - an ICE component




Page 2            An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
OIG

Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                           The Ofﬁce of Inspector General (OIG) evaluated the Department of Homeland
                           Security’s (DHS) planning and implementation of Section 428 of the Homeland
                           Security Act of 2002, P.L. 107-296, (the Act). Section 428, titled “Visa Issuance,”
                           vests in the Secretary of Homeland Security “all authorities” to issue regulations,
                           administer, and enforce all immigration and nationality laws. Section 428
                           provides for the assignment of Visa Security Ofﬁcers (VSO) to embassies and
                           consulates to oversee the security of the visa issuance process. Within DHS, the
                           responsibility for managing Section 428 issues rests predominantly within the
                           Border and Transportation Security (BTS) directorate.


    Results in Brief
                           The VSO program as it currently is managed prevents BTS from realizing the
                           potential value of stationing VSOs at U.S. embassies and consulate ofﬁces to
                           review visa applications. Because BTS uses temporary duty ofﬁcers who have
                           not received specialized training in VSO duties and foreign language training,
                           do not have all of the necessary skills, and do not have adequate administrative
                           support, the full intelligence and law enforcement value that VSOs could add to
                           the existing inter-agency country teams cannot be achieved.

                           DHS has made progress in meeting Section 428 requirements. Speciﬁcally it has:

                                • 	 Negotiated a memorandum of understanding (MOU) with the
                                    Department of State (DOS) to delineate their respective roles and
                                    responsibilities in implementing Section 428 requirements.

                                • 	 Selected and deployed DHS personnel to Saudi Arabia on temporary
                                    assignments to begin the visa review process.




        An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002	   Page 3
                                   • 	 Approved the formation of two internal organizations to manage the
                                       Section 428 requirements.

                             However, DHS has not yet implemented all of Section 428. Speciﬁcally, DHS did
                             not:

                                   • 	 Comply with the requirement to have DHS personnel in place in Saudi
                                       Arabia to review visa applications by January 24, 2003.1 Temporary
                                       personnel arrived on August 31, 2003.

                                   • 	 Develop a plan to provide homeland security training to DOS consular
                                       ofﬁcers, so that such ofﬁcers are more likely to spot factors that would
                                       deter them from issuing a visa to someone who might be a terrorist.

                                   • 	 Devise training plans to instruct DHS employees assigned to U.S.
                                       embassies and consular posts in foreign languages, interview and fraud
                                       detection techniques, and foreign country conditions.

                                   • 	 Establish, in coordination with DOS, performance standards to evaluate
                                       consular ofﬁcers.

                                   • 	 Publish the study of the role of foreign national employees in reviewing
                                       and approving visas, as required by Section 428(g)(2).

                                   • 	 Specify criteria to select other consular posts for the assignment of
                                       DHS employees, or submit the report required by Section 428(e)(4) to
                                       Congress.

                                   • 	 Submit the report describing the implementation of Section 428 to
                                       Congress, as required by Section 428(e)(7).

                             Many of the delays can be attributed to the signiﬁcant amount of time taken to
                             negotiate the DHS-DOS MOU that delineated the roles and responsibilities of the
                             two departments.2 Much of the work could have been initiated without awaiting
                             the execution of an MOU because many aspects of DHS’ new responsibility do


1
  We received differing opinions about the effective date for the implementation of the Act. The date stated here was derived from language 

in the Act, which required implementation within 60 days of the passage of the Act. The Act was passed on November 25, 2002. However, 

DHS was not formally established until March 1, 2003, making implementation of provisions of the Act difﬁcult. Nevertheless, we believe 

the law required the implementation of this provision of Section 428 by January 25, 2003. 

2
  The signing of the MOU was announced on September 29, 2003.




Page 4	                     An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                   not require DOS participation or consent. The MOU may serve a future purpose
                   to resolve serious controversies that cannot be resolved by less formal means, but
                   it should not have been a reason for delaying action.

                   Other signiﬁcant ﬁndings resulting from our evaluation are:

                        • 	 The Act requires BTS to develop programs of “homeland security
                            training” for consular ofﬁcers. This training is not further deﬁned in
                            the Act, and BTS ofﬁcials we interviewed had differing interpretations
                            of what might be appropriate. BTS has not yet developed a training
                            program for consular ofﬁcers.

                        • 	 The use of temporarily assigned (TDY) ofﬁcers to staff the visa security
                            ofﬁces in Riyadh and Jeddah rather than ofﬁcers on permanent (PCS)
                            assignments has reduced the effectiveness of the operation due to the
                            high turnover of ofﬁcers.

                        • 	 Nine of the ten TDY ofﬁcers who have served or are serving in Saudi
                            Arabia do not read or speak Arabic. This limits their effectiveness and
                            reduces their contribution to the security of the visa process.

                        • 	 The lack of sufﬁcient current funding for the visa security activity has
                            resulted in BTS Visa Security Ofﬁcers’ (VSO) in Saudi Arabia working
                            without adequate administrative support.

                        • 	 With no clear vision how to add value to the existing consular process,
                            the BTS VSOs in Saudi Arabia are mainly, but not exclusively, occupying
                            themselves entering visa applicant data into DHS databases to conduct
                            queries, conveying the results of the queries to the DOS ofﬁcers, and
                            examining the passports and application papers that the DOS consular
                            ofﬁcers have already scrutinized.

                        • 	 The Act’s requirement that in Saudi Arabia - and only in Saudi Arabia
                            - VSOs review all visa applications compels the VSOs there to expend
                            considerable time and effort screening the many applications from
                            children and certain third-country nationals who are of little homeland
                            security interest.

                        • 	 BTS and other law enforcement and intelligence agencies have not
                            reviewed thousands of visa application submitted and approved during



An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002	   Page 5
                     the two years prior to the September 11th attacks for possible connection
                     to terrorism.

           We recognize the enormous challenges faced by BTS in establishing itself and
           its new missions in such a short time. We further understand that many of the
           Section 428 requirements levied against BTS were unfunded. BTS ofﬁcials
           said that they have had numerous discussions with congressional staff about the
           funding that BTS needs to meet the extensive responsibilities required by Section
           428’s mandate to establish a global visa security operation. Nevertheless, funding
           for many of the required programs has not yet been provided.

           We are recommending that BTS:

                1. 	 Develop programs to provide homeland security training for consular
                     ofﬁcers, as well as training for consular ofﬁcers in interview and fraud
                     detection techniques;

                2. 	 Develop a program to provide foreign language training for VSOs;

                3. 	 Develop performance standards to evaluate consular ofﬁcers in 

                     coordination with DOS;


                4. 	 Develop criteria for assigning VSOs to other countries;

                5. 	 Assign responsibility for developing and publishing the report that
                     explains the decisions not to assign VSOs to all other countries;

                6. 	 Conduct a study of the personnel management techniques used by other
                     agencies with a global workforce, and evaluate the ways to facilitate the
                     overseas rotation of DHS employees;

                7. 	 Discontinue the practice of ﬁlling VSO positions with temporarily
                     assigned ofﬁcers;

                8. 	 Establish criteria for selecting VSOs based on required experience and
                     skills;

                9. 	 Establish a funding mechanism to ensure that the visa security operation
                     receives all required support, and that DOS is reimbursed promptly for
                     the support that it provides;



Page 6	   An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                                 10. Seek amendment to Section 428(i) to limit the scope of visa application
                                     reviews in Saudi Arabia;

                                 11. Examine visa applications submitted in Saudi Arabia in the two year
                                     period prior to September 11, 2001; and,

                                 12. Automate the visa name check process to eliminate redundant data entry.



Background
                            The Homeland Security Act of 2002 established DHS. Section 428 of the
                            Act, which pertains to visas, requires DHS to assume six speciﬁc visa related
                            responsibilities:

                                 1. 	 Assign DHS employees to Saudi Arabia to review all visa applications
                                      prior to adjudication by consular ofﬁcers.3

                                 2. 	 Develop programs of homeland security training for DOS consular
                                      ofﬁcers.4

                                 3. 	 Ensure that DHS employees and, as appropriate, consular ofﬁcers, are
                                      provided training, including training in foreign languages, interview
                                      techniques, and fraud detection techniques, in conditions in the particular
                                      country where each employee is assigned, and in other appropriate areas
                                      of study.5

                                 4. 	 Develop performance standards to be used when the Secretary of State
                                      evaluates the performance of consular ofﬁcers.6

                                 5. 	 Study the role of foreign nationals in the granting and refusing of visas
                                      and other documents authorizing entry of aliens into the United States.7




3
  Sec. 428 (i).
4
  Sec. 428 (b) (1).
5
  Sec. 428 (e) (6).
6
  Sec. 428 (e) (3).
7
  Sec. 428 (g) (1).

         An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002	    Page 7
                             6. 	 Assign DHS employees to diplomatic and consular posts at which visas
                                  are issued, unless the Secretary determines that such assignment at a
                                  particular post would not promote homeland security.8

                        Section 428 also requires that DHS send to Congress:

                             1. 	 An annual report describing the basis for each determination not to assign
                                  DHS employees to a diplomatic or consular post.9

                             2. 	 A report, jointly with the Secretary of State, not later than one year after
                                  enactment of the Act on the implementation of subsection (e), which
                                  relates to the assignment of DHS employees to embassies abroad, and
                                  conveying any legislative proposals necessary to further the objectives of
                                  subsection (e).10

                             3. 	 A report, to be issued not later than one year after enactment of the Act,
                                  on a study of the role of foreign service nationals in the granting or
                                  refusing of visas.11



Purpose, Scope, and Methodology
                        We conducted this evaluation to determine whether BTS implemented all
                        Section 428 requirements and to assess the effectiveness of the VSO program
                        implemented in Saudi Arabia. We began our review in July 2003 and circulated
                        a draft report for comments in November 2003. In December 2003 we were
                        informed of an October 31, 2003, reorganization of the ofﬁces involved in
                        executing the DHS 428 activities. This reorganization necessitated additional
                        ﬁeldwork. We conducted interviews with DHS ofﬁcials including the Under
                        Secretary for BTS, the director of the Visa Security Unit (VSU) at Immigration
                        and Customs Enforcement (ICE), and the head of the BTS Ofﬁce of International
                        Enforcement (OIE). We reviewed DHS documents in Washington, D.C. and in
                        Saudi Arabia. We also reviewed information from DOS and the White House
                        Homeland Security Council. While in Saudi Arabia, we met with the temporary


8
  Sec. 428 (e) (1).
9
  Sec. 428 (e) (4).
10
   Sec. 428 (e) (7).
11
   Sec. 428 (g) (2).




Page 8	                An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                       VSOs assigned to Riyadh and Jeddah, DOS ofﬁcials, and other members of the
                       U.S. embassy community.

Deployment of Visa Security Ofﬁcers
                       BTS did not comply in a timely fashion with the requirement in Section 428(i)
                       that it place VSOs in Saudi Arabia to review all visa applications prior to
                       adjudication by DOS. According to Section 428(i), on-site reviews by DHS
                       personnel were to begin “after the enactment of this Act.” The Act became
                       effective on January 24, 2003, 60 days after the President signed it. However,
                       BTS VSOs did not deploy to Saudi Arabia until the end of August 2003. DHS
                       ofﬁcials told us that the department waited for the DHS-DOS MOU to be
                       approved before assigning BTS personnel to Saudi Arabia. When the decision
                       was made to send a temporary team in August 2003, we were told that the ofﬁcers
                       would participate in the visa review process “only in an advisory capacity” until
                       the DHS-DOS MOU was signed. The ofﬁcers assumed their full responsibilities
                       at the end of September 2003 when the DHS-DOS MOU was signed.

     Planning and Preparation

                       In late 2002, the White House Ofﬁce of Homeland Security established the DHS
                       Transition Planning Ofﬁce (TPO) that, in turn, formed an international sub-group
                       to address the international aspects of the Act. In January 2003, members of
                       the sub-group led an assessment team of senior employees from the agencies
                       that would transfer to DHS on a visit to Saudi Arabia. The purpose of their trip
                       was to study how Section 428(i), which requires DHS visa screening in Saudi
                       Arabia, could be implemented at the embassy in Riyadh and at the consulate
                       general in Jeddah. The assessment team included employees from Immigration
                       and Naturalization Service (INS), U.S. Customs Service, the White House Ofﬁce
                       of Homeland Security, and the Transportation Security Administration. A senior
                       ofﬁcer from the DOS Bureau of Consular Affairs accompanied the group. The
                       team made several recommendations on how DHS personnel should function in
                       embassies and consulates and reported its ﬁndings to the TPO. The team’s report
                       addressed in broad terms questions of ofﬁce space, reporting relationships, and
                       desired qualiﬁcations for personnel chosen to perform the work, such as language
                       ability and professional experience.

                       In July 2003, BTS convened an Interagency International Affairs Working Group
                       and interviewed volunteers willing to serve temporarily in Saudi Arabia until
                       permanent employees could be chosen and trained. Three ofﬁcers formerly with


    An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002   Page 9
                      INS were deployed to Saudi Arabia at the end of August 2003 in TDY status.
                      Two of these ofﬁcers were already assigned overseas and the third was assigned
                      domestically.

          DHS–DOS Memorandum of Understanding

                      Development of the MOU began before the effective date of the Act as Ofﬁce of
                      Homeland Security staff circulated drafts; the DHS TPO began working on these
                      drafts in January 2003. In July and August 2003, we were told that completion of
                      the MOU was imminent. It was signed eventually on September 29, 2003.

                      DHS and DOS ofﬁcials told us that negotiating the MOU was a priority because
                      without an MOU, the exact delineation of responsibilities between the two
                      departments would be too unclear to enable the participants to address Section
                      428 issues. Also, ofﬁcials stated that the MOU would establish mechanisms
                      for the departments to communicate with each other on Section 428 issues.
                      Speciﬁcally, DHS ofﬁcials told us that implementing the subsections regarding the
                      study of the role of foreign nationals and assignment of DHS staff to Saudi Arabia
                      was conditional upon a signed inter-agency MOU. One ofﬁcial believed that
                      only when the MOU went into force would DHS be required to review all visa
                      applications in Saudi Arabia. Several ofﬁcials who we interviewed were parties to
                      the MOU negotiations. They reported that DHS and DOS attorneys who led the
                      inter-agency negotiations shared the view that DHS could not comply with these
                      subsections until an MOU was completed. Even accepting this view, important
                      preparatory work could have begun while the MOU negotiations were in progress.

                      The Act did not make any of the Section 428 requirements conditional upon
                      the development of the MOU. The Act contains only one mention of an MOU
                      between DHS and DOS, at 428 (e) (8), which provides that subsection (e)
                      becomes effective either one year after enactment, or upon completion of an
                      MOU, whichever occurs earlier. We do not make a recommendation regarding
                      the delayed deployment of VSOs to Saudi Arabia. However, we address the
                      issues associated with the use of temporarily assigned VSOs later in our report.

          Organizational Changes

                      Even while DHS was planning to implement Section 428 requirements, its
                      internal organization was evolving. In September 2003, DHS approved the
                      formation of an Ofﬁce of International Enforcement (OIE) within BTS. OIE
                      ofﬁcers told us that once OIE was fully established and funded, it would be



Page 10              An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                                responsible for all Section 428 requirements. OIE’s responsibilities were to
                                include developing a plan to train DOS consular ofﬁcers; developing a plan to
                                train DHS personnel assigned to U.S. embassies and consulates; and, developing
                                a plan to assign DHS personnel to some U.S. embassies and consulates. OIE also
                                would supervise those DHS employees detailed from ICE and CBP to be assigned
                                to U.S. embassies and consulates overseas.

                                However, an important change occurred on October 31, 2003, when DHS
                                approved a comprehensive reorganization of its international activities that
                                signiﬁcantly diminished OIE’s role in Section 428 operations. By memorandum,
                                the DHS Secretary announced that OIE would remain small, with seven to nine
                                people, as operational responsibilities and daily policy making decisions would
                                be assumed by another new BTS organization. According to the reorganization
                                plan, OIE maintained general oversight responsibility for BTS international policy
                                matters and would be responsible for international technical assistance and shared
                                administrative services.

                                The October 31, 2003, memorandum also established the ICE International
                                Ofﬁce, which includes the VSU. According to the memorandum, the VSU will
                                assume responsibility for daily operational and policy decisions with respect
                                to the implementation of Section 428 and the DHS-DOS MOU. Speciﬁcally,
                                the VSU will direct the activities of visa security ofﬁcers.12 Four ofﬁcers
                                detailed from their regular duty stations currently staff the VSU, located at ICE
                                headquarters. Since its establishment, a senior ofﬁcer, on TDY, has led the VSU.
                                The VSU director reports to the Deputy Assistant Director for International
                                Affairs, who in turn reports to the director of the Ofﬁce of Investigations.


VSO and Consular Ofﬁcer Training
            Homeland Security Training for Consular Ofﬁcers

                                The Act contains two provisions mandating that DHS train consular ofﬁcers. The
                                ﬁrst, in Section 428(b)(1), deals with the issue broadly in terms of describing the
                                shared responsibilities of DHS and DOS for visa issuance. It authorizes DHS
                                to develop “homeland security training programs,” not further deﬁned, to be
                                provided to DOS consular ofﬁcers in addition to consular training provided by the
                                Secretary of State. The second, more limited provision in the Act relating to DHS

12
     As of April 2004, visa security operations are conducted only at the U.S. Embassy in Riyadh and the Consulate General in Jeddah.


           An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002                          Page 11
                       training for consular ofﬁcers is in Section 428(e)(2), which describes the activities
                       of VSOs at those consular posts to which they are assigned. In Saudi Arabia, the
                       temporarily assigned DHS ofﬁcers have provided informal fraud training on a
                       one-on-one basis to the DOS consular ofﬁcers in Riyadh and Jeddah.

                       While DHS ofﬁcials are aware of the broad requirement to train all consular
                       ofﬁcers, DHS does not have a plan to do so. DHS has not deﬁned the purpose,
                       scope, and objectives of future consular training, nor has it developed a
                       curriculum for a homeland security training program for consular ofﬁcers.

          Language, Interviewing, and Document Fraud Detection Training

                       Again, DHS ofﬁcials are aware of the requirement in Section 428 (e) (6) to
                       provide foreign language, country studies, and interview and fraud detection
                       techniques training to DHS VSOs and DOS consular ofﬁcers, but it has not
                       developed a plan to provide such training. As of March, 2004, DHS has not
                       developed a speciﬁc curriculum for the required training and has not identiﬁed
                       personnel to receive the training.

                       Since mid-2003, DHS has held meetings to begin designing a curriculum for such
                       training. Among the participants were ofﬁcers subsequently assigned to OIE, and
                       representatives from the Federal Law Enforcement Training Center. One ofﬁcial
                       interviewed said that the DHS personnel already abroad may be brought back to
                       the United States in small groups during 2004 for a course that would familiarize
                       them with the whole range of Section 428 responsibilities.

                       DOS has well developed training programs for foreign languages and foreign area
                       studies at the National Foreign Affairs Training Center in Arlington, Virginia.
                       The DHS-DOS MOU makes these facilities available to DHS employees. As
                       yet, DHS has not developed plans to use this training resource and, we were
                       told, language training may not be part of a VSO’s pre-assignment training.
                       While DHS personnel in Saudi Arabia informally share their expertise with DOS
                       consular ofﬁcers in methods to detect counterfeit documents, a curriculum for
                       training in interview and fraud detection techniques has not been developed.

                       Funding for training and other costs associated with overseas deployment of
                       DHS staff is not yet available, since DHS’ budget for ﬁscal year (FY) 2004 was
                       prepared before the establishment of OIE and the ICE VSU. As a result, there
                       is no identiﬁed funding for visa security operations this ﬁscal year. In its April
                       2004 congressional testimony, ICE requested $10 million for funding the visa



Page 12               An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                            security program in FY 2005, and sought the establishment of 90 new permanent
                            positions.13

                            We recommend that the Under Secretary for Border and Transportation Security:

                            Recommendation 1: Develop a curriculum of homeland security training for
                            consular ofﬁcers consistent with the requirement in Section 428 (b) (1) of the Act.

                            Recommendation 2: Develop a training program for VSOs that includes foreign
                            languages, country studies, and interview and fraud detection techniques.



Consular Ofﬁcer Performance Standards
                            DHS, in coordination with DOS, has not established performance standards to
                            evaluate consular ofﬁcers. The Act mandates that DHS develop performance
                            standards to be used when the Secretary of State evaluates the performance of
                            consular ofﬁcers. No DHS component has been assigned this task. While the
                            MOU contains coordination mechanisms to be used by the departments to consult
                            with each other on Section 428 issues, it does not contain substantive provisions
                            regarding development of performance standards.

                            We recommend that the Under Secretary for Border and Transportation Security:

                            Recommendation 3: In coordination with DOS, develop performance standards
                            to evaluate consular ofﬁcers.



Role of Foreign Nationals
                            DHS failed to meet the November 25, 2003, submission deadline for a report to
                            Congress that studied of the role of foreign national employees in the granting
                            and refusing of visas. Most federal agencies staff their overseas ofﬁces with both
                            U.S. and foreign national employees. They provide administrative support, local
                            expertise, language skills, and operational continuity.



13
  Hearing on Border Enforcement, and Immigration Services: Testimony of The Honorable Michael J. Garcia, Assistant Secretary, Bureau
of Immigration and Customs Enforcement. March 30, 2004, testimony before Homeland Security Subcommittee of the U.S. Senate
Appropriations Committee.


        An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002                      Page 13
                            Section 428(g) requires that DHS study the role of foreign national employees
                            in the granting and refusing of visas and other documents authorizing entry of
                            aliens into the United States and requires that a report be issued not later than
                            one year after enactment of the Act. While Section 428(g) makes no mention of
                            DOS participation in the study, DHS ofﬁcials said that no meaningful or accurate
                            study could be conducted without DOS assistance because most of the foreign
                            nationals are DOS employees. DHS ofﬁcials concluded that DOS assistance
                            would be facilitated by the execution of the MOU. Since execution of the MOU
                            was believed to be imminent during the summer of 2003, tentative plans were
                            developed to conduct the study. A draft of the study was completed in November
                            2003 and circulated for ﬁnal comments within DHS. In December 2003 it was
                            sent to DOS for comments. In February 2004 it was released to the Ofﬁce of
                            Management and Budget (OMB) for review. In late May 2004, the report was
                            still pending clearance at OMB. It was ﬁnally released in July 2004.


Assignment of Visa Security Ofﬁcers
                            DHS did not meet the November 25, 2003, deadline for submitting a report to
                            Congress on the rationale for not assigning VSOs to U.S. embassies and consular
                            ofﬁces.14 Moreover, DHS has not established formal written criteria to select
                            additional countries where VSOs will be assigned.

                            Section 428(i) requires that DHS assign VSOs to Saudi Arabia to review all visa
                            applications before consular ofﬁcers adjudicate the applications. Section 428(e)
                            authorizes the Secretary to assign VSOs to other countries unless he determines
                            that such assignments would not promote homeland security. In addition,
                            Section 428(e) requires an annual report to Congress describing the basis for each
                            determination not to assign DHS employees to a diplomatic or consular post.

                            We were told that the selection process involves evaluating current intelligence,
                            historical connections to terrorism, visa volume, and several other factors to
                            decide where the next group of visa security ofﬁces will be opened. We were
                            unable to determine which DHS element will be responsible for formalizing the
                            criteria or preparing the report to Congress, or when the report will be written.

14
  We received differing opinions about the effective date for the implementation of the Act. The date stated here was derived from
language in the Act, which required implementation within 60 days of the passage of the Act. The Act was passed on November 25, 2002.
However, DHS was not formally established until March 1, 2003, making implementation of provisions of the Act difﬁcult. Nevertheless,
we believe the law required that DHS implement this provision of Section 428 by November 25, 2003, the one year anniversary of the
passage of the Act.



Page 14                    An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                             While the visa security program eventually could have many ofﬁces around the
                             world, DHS has not determined how many will eventually be created, or when.

                             In May 2004, the Under Secretary for BTS informed us that DHS is conducting a
                             review of DHS operations overseas. The review, in which BTS is participating,
                             will examine personnel issues, including the possibility of a foreign service for
                             DHS. DHS has made plans to establish ﬁve additional visa security ofﬁces before
                             the end of 2004. BTS informed us that it has prepared NSDD-3815 requests for the
                             next group of VSO positions to be created abroad.

                             We recommend that the Under Secretary for Border and Transportation Security:

                             Recommendation 4: Develop written criteria for assigning VSOs to other
                             countries.

                             Recommendation 5: Assign responsibility to develop and publish the report to
                             Congress required by Section 428(e)(4).

         The Civil Service And International Personnel Mobility

                             BTS does not have a personnel management plan to address the needs of a global
                             workforce and has not established a mechanism to facilitate overseas rotations of
                             BTS employees. Because there are visa activities in almost every country with
                             which the United States maintains diplomatic relations, the requirement to station
                             VSOs around the world could lead to the assignment of BTS personnel to many,
                             or even most, of the U.S. diplomatic posts abroad.

                             We interviewed several employees who had been assigned overseas under the
                             authority of the Ofﬁce of International Affairs of the former INS. They said that
                             INS sometimes had difﬁculty stafﬁng its overseas posts. Management had to let
                             some positions remain vacant for extended periods of time while replacement
                             ofﬁcers were sought. Since Civil Service rules do not generally allow forced
                             transfers, INS management often was unable to select its best ofﬁcers for foreign
                             assignment, or to compel the ofﬁcers who did seek such assignments to serve out
                             the full term of their assignment.

                             Another signiﬁcant challenge was re-integrating employees when their foreign
                             tours approached conclusion. When the time came for the overseas employees to

15
  National Security Decision Directive 38 established the procedure by which federal agencies other than the Department of State create
new positions for their personnel at an embassy or consulate in a foreign country.


        An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002                           Page 15
           return to the United States, positions at the former ofﬁce often were unavailable.
           The domestic positions previously encumbered by those assigned overseas had
           been permanently ﬁlled by other employees. Ofﬁcers assigned abroad were
           sometimes at a disadvantage competing for new domestic vacancies. Domestic
           managers, when ﬁlling vacancies in their ofﬁces, were not required to give hiring
           preference to personnel overseas and often promoted from within. This resulted
           in foreign assignments being extended repeatedly until a suitable opening arose in
           the domestic ofﬁce to which the employee wished to return.

           Federal agencies ﬁnd it easier to invest time and money training employees when
           they can expect a signiﬁcant return on their investment. Language training for
           VSOs, for example, would be easier to justify if the ofﬁcer will serve more than
           one tour abroad. Language training is very expensive—Arabic language training
           programs at the Foreign Service Institute or the Defense Language Institute last
           more than a year. Students must be paid and housed during the long training
           period. VSOs over time will develop a professional expertise that would be
           very valuable to DHS if it could be preserved. New VSOs could be trained by
           experienced VSOs who served two or three foreign assignments over the course
           of their careers.

           ICE ofﬁcials told us that they do not believe the beneﬁt of training such a cadre of
           ofﬁcers is worth the potential cost to ICE’s domestic law enforcement operations.
           They do not want to create two different types of agents, those with mainly
           domestic experience and those with primarily overseas experience. There is, one
           ofﬁcial said, “no interest in creating a Foreign Legion.” In our interviews with the
           Under Secretary for BTS and the director of OIE, we heard similar views.

           Many federal agencies with a global workforce, such as the Departments of
           State, Commerce, Agriculture, and the Central Intelligence Agency, have adapted
           a “foreign service” model to staff overseas posts. This involves creating and
           training a designated group of employees expected to be mobile and international;
           creating a fair and effective assignment system to facilitate their movements;
           investing in language and other special training for the overseas mission; and
           synchronizing their resumption of domestic duties with the movement of other
           employees. We do not maintain that the “foreign service” model is the best
           solution to the DHS overseas personnel challenge; however, given the need DHS
           will have to maintain a robust, professional, and international posture involving
           many DHS elements, it should be studied and considered as a possible solution to
           maintaining an effective long-term, overseas operation.




Page 16   An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                       We recommend that the Under Secretary for Border and Transportation Security:

                       Recommendation 6: Conduct a study of the personnel management techniques
                       used by other agencies with global workforces and evaluate ways to facilitate the
                       overseas rotations of DHS employees.



Visa Security Operations in Saudi Arabia
                       The visa security operation as it is currently managed is not as effective or as
                       efﬁcient as it should be. Lacking funds, housing, administrative support, ofﬁce
                       space, and specialized VSO training, the assigned ofﬁcers cannot fully provide
                       security enhancements for the visa application process. Because VSOs were
                       spending signiﬁcant portions of their time as data entry operators, they did not
                       always have time to perform investigative and intelligence analysis functions.
                       In addition, the ofﬁcers assigned to Saudi Arabia do not always have current
                       experience or skill sets.

     Temporarily Assigned VSOs

                       As of March 2004, of the ten VSOs currently or previously assigned to Saudi
                       Arabia, only one served more than 90 days. The VSO operation has been staffed
                       by a succession of temporary personnel because the Act did not provide new
                       positions for VSOs and funds were not provided to pay the costs of transferring
                       employees to Saudi Arabia. The VSOs are detailed from their permanent duty
                       stations for TDY assignment. The costs of temporarily assigning the VSOs
                       to Saudi Arabia are, in part, being borne by the TDY ofﬁcers’ permanent duty
                       stations.

                       Little institutional memory has been developed as a consequence of the rapid
                       turnover of personnel. Each new VSO starts from the beginning to learn the
                       job and the work environment. One of the volunteers had never worked outside
                       the United States and was unfamiliar with the structure of an embassy. Another
                       VSO had had no prior experience with visas and lacked any familiarity with the
                       visa application and issuance process. Others have come to the job without any
                       background in criminal investigation, which ICE considers an essential element of
                       the VSO function.

                       Because the ofﬁcers are assigned only temporarily, DOS issues them ofﬁcial—not
                       diplomatic—passports. Because of their TDY status, they are denied diplomatic


    An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002   Page 17
                      status and, consequently, they are treated as foreign visitors by the government
                      of Saudi Arabia. This has an impact on their ability to perform their duties. The
                      government of Saudi Arabia places severe restrictions on the activities of foreign
                      visitors that make it impossible for the TDY ofﬁcers to transact business at a
                      bank, rent a car, obtain a driver’s license, or purchase a mobile telephone. These
                      are not just personal inconveniences. TDY ofﬁcers are not as mobile or as able
                      to communicate as are their embassy colleagues. Given the sensitive nature of
                      the duties that VSOs perform, they should be accorded the protections of the
                      international conventions on diplomatic and consular relations.

                      While the VSOs probably will continue to be temporarily assigned for the
                      immediate future, BTS could save money by housing the TDY ofﬁcers in
                      rented housing rather than hotels. The embassy estimated that DHS could
                      save approximately $80,000 per year if it rented housing for the TDY ofﬁcers,
                      assigning two ofﬁcers to each house.

                      We recognize the imperative of deploying VSOs to Saudi Arabia quickly, and
                      acknowledge the positive actions taken by BTS to meet the statutory mandate.
                      However, continuing to use TDY ofﬁcers to ﬁll the VSO positions, without regard
                      to their qualiﬁcations, is not conducive to developing an effective or efﬁcient
                      long-term visa security operation. BTS should begin to ﬁll the VSO positions
                      with permanently assigned ofﬁcers as soon as possible. The Under Secretary
                      indicated that this is BTS’ intention, and that future VSO assignments will be
                      long-term transfers, not temporary assignments.

                      We recommend that the Under Secretary for Border and Transportation Security:

                      Recommendation 7: Discontinue the practice of ﬁlling the VSO positions
                      with temporarily assigned ofﬁcers and move toward ﬁlling the positions with
                      permanently assigned ofﬁcers.

                      Recommendation 8: Establish criteria for selecting VSOs based on required
                      experience and skill sets to support the visa security operation.

          Embassy Support for VSO Operations

                      As of March 2004, DHS had not paid for all of the administrative support services
                      provided by DOS. In addition, there is other essential support that the VSOs
                      required but, because of the lack of funding, DOS does not provide. This support
                      includes housing, dedicated transportation and drivers, and cell phones. DHS’ FY



Page 18              An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                   2004 budget did not include funds for reimbursing DOS for providing support for
                   the visa security operations. Uneconomical practices result from the lack of DHS
                   funding, such as placing employees in hotels because of the absence of funding
                   to procure permanent, leased housing. BTS made a request to reprogram some
                   FY 2004 DHS funds to support the current operations of the VSU, especially the
                   VSO ofﬁces in Saudi Arabia. The Under Secretary said that this request has been
                   pending with DHS management for several months.

                   All agencies operating at an embassy participate in the common funding of
                   shared administrative services though the Interagency Cooperative Administrative
                   Support Services (ICASS). One-time costs can occur, such as when an embassy
                   needs to remodel its ofﬁces to make room for a new agency. The construction
                   or renovation expenses are typically charged to the beneﬁting agency. Few
                   embassies have excess ofﬁce space and signiﬁcant reconstruction can be required
                   to accommodate new staff, especially in the highly restricted and tightly secured
                   “Controlled Access Area” (CAA) where classiﬁed information is handled.

                   The U.S. Embassy in Riyadh estimated that the start-up costs for the visa security
                   ofﬁces in Saudi Arabia were $189,000. These costs do not include renovations or
                   personnel costs, just ofﬁce equipment, ofﬁce furniture, and ofﬁce supplies. The
                   embassy also estimates that when DHS is fully staffed, the annual ICASS bill for
                   administrative support will be $491,000.

                   It is difﬁcult to forecast the expenses for renovations and reconstruction without
                   knowing the speciﬁc countries to which VSOs will be assigned. DHS will need
                   to plan each new visa security ofﬁce well in advance of its actual opening, enter
                   into a dialogue with the affected embassy, obtain estimates for the required
                   renovations, and then prepare a budget request. A possible alternative that might
                   permit timelier establishment of the VSO program would be for DHS to seek
                   funding in advance for an “embassy ofﬁce space renovation fund,” and then report
                   to Congress as it is used and requires replenishment.

                   We recommend that the Under Secretary for Border and Transportation Security:

                   Recommendation 9: Establish a funding mechanism to ensure that the visa
                   security operations receive all required support and that DOS is promptly
                   reimbursed for the support that it provides.




An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002   Page 19
          Scope of Visa Application Reviews

                       VSOs in Saudi Arabia spend a signiﬁcant amount of time reviewing applications
                       of little homeland security interest, such as those of children, certain third-
                       country nationals, or aliens already denied visas by DOS. Only 55 percent of the
                       visa applications processed in Saudi Arabia in the past year were Saudi Arabian
                       citizens. The rest were third country nationals, the largest contingent of whom are
                       Filipinos. Section 428(i) requires that DHS review all visa applications in Saudi
                       Arabia and does not give it the authority to set aside applications in any category
                       in order to concentrate on higher risk applications. In every other country, Section
                       428(e) permits DHS to decide which applications would best beneﬁt from VSO
                       review.

                       We recommend that the Under Secretary for Border and Transportation Security:

                       Recommendation 10: Propose a technical correction to Section 428(i) to align
                       it with Section 428(e) and permit DHS to review only those applications with
                       homeland security interest in Saudi Arabia.

                       Consular ofﬁcials in Riyadh said that in the months following the September
                       11 attacks, Federal Bureau of Investigation (FBI) investigators visited the
                       embassy and examined the visa applications of several hundred individuals on
                       a list they had brought with them. The list included names of the September 11
                       attackers—15 of the 19 hijackers were Saudis—and others suspected of terrorist
                       involvement.

                       According to the DOS consular ofﬁcials, however, there has been no examination
                       by law enforcement or intelligence agencies of thousands of other Saudi visa
                       applications that pre-date the September 11 attacks. These ofﬁcials opined that
                       a review of the applications might uncover information of intelligence or law
                       enforcement value. Analysis, for example, might identify young Saudi males who
                       may have been associates, or may have come from the families, tribes, or villages
                       of the hijackers. Consular ofﬁcials pointed out that these visa applications could
                       contain information about other terrorist conspirators who may still have valid
                       U.S. visas or who may remain in the United States. DOS has moved many of the
                       visa applications to archives in the United States, but large numbers remain in
                       temporary storage in Riyadh’s visa section.

                       Our interviews with DHS, FBI, and intelligence ofﬁcials in Riyadh conﬁrmed
                       that no thorough examination of pre-September 11 visa records has been made.



Page 20               An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                   They said that combing through these thousands of old applications for possible
                   commonalities with the hijackers would require a very large amount of time and
                   would be an unwise diversion from their higher priority counterterrorism efforts
                   already under way.

                   We recommend that the Under Secretary for Border and Transportation Security:

                   Recommendation 11: Evaluate the possible beneﬁt of analyzing the existing
                   visa applications in DOS ﬁles of young Saudi males who were issued visas in the
                   two year period prior to September 11, 2001. BTS should coordinate with DOS,
                   the FBI, and other federal agencies, as necessary, before making a determination
                   about whether, or how, to proceed to analyze the applications.

 Language Training

                   Even though Section 428 requires language training for VSOs, ICE has not
                   decided whether to provide it. The costs, and the personnel complications
                   of assigning ofﬁcers to long-term training, are indeed daunting. The need to
                   establish the ﬁrst visa security ofﬁce in 2003 gave DHS no option but to seek
                   volunteers to serve on a temporary basis. Only one of the ten ofﬁcers who served
                   in Saudi Arabia in the past year spoke Arabic.

                   We are concerned that the precedent established by sending the ﬁrst VSOs to
                   Saudi Arabia without language training may become the accepted practice. In our
                   opinion, this would deprive the visa security operation of much of its potential.
                   Further, adopting this practice would clearly violate the training provisions
                   of Section 428 and the DHS-DOS MOU. Section 6b of the MOU lists the
                   qualiﬁcations for overseas DHS personnel, which include providing the VSOs
                   with the ability to speak the host country language.

                   We observed VSOs at work in Saudi Arabia and were struck by how difﬁcult
                   it was for the VSOs to perform their tasks while relying on local employees to
                   translate documents and conversations for them. While the experience they
                   bring from their prior assignments makes them adept at spotting some fraudulent
                   documents, they clearly would contribute more if they could read and speak the
                   local language.

                   Earlier in our report, we made a recommendation concerning language training
                   (Recommendation 2). We made that recommendation based on requirements
                   established by Section 428 and the DHS-DOS MOU. Our observations of the



An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002   Page 21
                      VSOs working in Saudi Arabia only conﬁrmed the importance of having VSOs in
                      those positions with the necessary language skills.

          Database Queries

                      There is no consolidated DHS “lookout list” or “watch list.” VSOs in Saudi
                      Arabia screen visa applications against a multitude of DHS databases, some of
                      which are merely case ﬁle management systems containing little genuinely useful
                      information. VSOs enter the visa applicants’ biographic information manually to
                      conduct the queries. The same biographic information was previously collected
                      and entered into DOS data systems by the consular ofﬁcers during the visa
                      application process. However, the DHS and DOS data systems do not share
                      this information. Even if the initiation of the name checks were automated,
                      personnel must have immigration experience and a working knowledge of the
                      DHS databases to interpret the results of the DHS queries due to the technical
                      complexity of the DHS data systems.

                      During the ﬁrst few months of operation, the VSOs entered the applicants’ names
                      and biographic data manually into DHS databases. This entering and re-entering
                      of applicant biographical data consumed almost all of the available manpower
                      and left no time for analysis. A new procedure was developed that required the
                      VSOs to enter each applicant’s name, date and place of birth, passport number,
                      and other particulars into one local database. At the end of each day, the VSOs
                      develop a spreadsheet that is e-mailed to the National Targeting Center (NTC)
                      in Reston, Virginia. At NTC, analysts process the spreadsheet as if it were the
                      passenger manifest of a hypothetical inbound ﬂight and check it against most of
                      the available name check systems and government databases. Analysts at NTC
                      have greater access to DHS databases than the DHS overseas ofﬁces, and are
                      able to interpret the results of the name searches. The analysts electronically
                      send adverse query results to the VSOs in Saudi Arabia. The turn-around time—
                      currently overnight—does not delay the timely processing of the visa applications
                      in Saudi Arabia.

                      The NTC procedure works so well that it might be a model for other visa security
                      ofﬁces. If this process were expanded to new visa security operations in other
                      countries, DHS must ensure that NTC is staffed and provided resources to handle
                      the additional workload. It requires about one hour at NTC each day to process
                      the two incoming spreadsheets from Riyadh and Jeddah, review the “hits,” search
                      the computer ﬁles to verify and augment the information, and record the analyst’s
                      comments on the outgoing spreadsheet. Saudi Arabia is a relatively low volume



Page 22              An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                   visa operation, even if visa demand were to return to pre-9/11 levels. If the
                   next four or ﬁve countries added to the program produce higher volumes of visa
                   applications, the visa name check workload at NTC could increase signiﬁcantly.

                   Assigning ofﬁcers to overseas locations to repeat data entry of information
                   already collected and transmitted to Washington, D.C. by the DOS consular
                   ofﬁcers is not an efﬁcient use of DHS resources. The purpose for sending these
                   ofﬁcers overseas is to provide investigative and intelligence analysis support to
                   the visa application process. The BTS Under Secretary said that BTS agrees that
                   the database work would best be performed by consular ofﬁcers, freeing VSOs to
                   focus on analysis of terrorist threats to the visa process.

                   Before the visa security operation expands to other countries, DHS and DOS
                   should explore ways to automate the database queries and free the VSOs for
                   greater priority duties. One possibility would be for DOS to create a computer
                   program that enables its data systems, either at the visa issuing post or in
                   Washington, D.C., to generate a properly formatted query and transmit it directly
                   to NTC. The results would be sent back to the VSOs at the overseas locations. A
                   second option would be to build on the existing process wherein some of the data
                   that DOS collects is passed to DHS’ Automated Biometric Identiﬁcation System
                   (IDENT) for ﬁngerprint matching. This existing process could be used to pass the
                   necessary data directly to the NTC.

                   We recommend that the Under Secretary for Border and Transportation Security:

                   Recommendation 12: Develop an interface between BTS and DOS computer
                   systems that permits a fast and efﬁcient method to automate the visa security
                   name check process and eliminate the duplicative data entry for database checks.




An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002   Page 23
Appendix A
Section 428 of the Homeland Security Act of 2002



          Section 428 of the Homeland Security Act (P.L. 107-296)

          (a) DEFINITION.—In this subsection, the term ‘‘consular ofﬁce’’ has the meaning given that
          term under section 101(a)(9) of the Immigration and Nationality Act (8 U.S.C. 1101(a)(9)).

          (b) IN GENERAL.—Notwithstanding section 104(a) of the Immigration and Nationality Act (8
          U.S.C. 1104(a)) or any other provision of law, and except as provided in subsection (c) of this
          section, the Secretary—

          (1) shall be vested exclusively with all authorities to issue regulations with respect to, administer,
          and enforce the provisions of such Act, and of all other immigration and nationality laws,
          relating to the functions of consular ofﬁcers of the United States in connection with the granting
          or refusal of visas, and shall have the authority to refuse visas in accordance with law and to
          develop programs of homeland security training for consular ofﬁcers (in addition to consular
          training provided by the Secretary of State), which authorities shall be exercised through the
          Secretary of State, except that the Secretary shall not have authority to alter or reverse the
          decision of a consular ofﬁcer to refuse a visa to an alien; and

          (2) shall have authority to confer or impose upon any ofﬁcer or employee of the United States,
          with the consent of the head of the executive agency under whose jurisdiction such ofﬁcer or
          employee is serving, any of the functions speciﬁed in paragraph (1).

          (c) AUTHORITY OF THE SECRETARY OF STATE.—

          (1) IN GENERAL.—Notwithstanding subsection (b), the Secretary of State may direct a
          consular ofﬁcer to refuse a visa to an alien if the Secretary of State deems such refusal necessary
          or advisable in the foreign policy or security interests of the United States.

          (2) CONSTRUCTION REGARDING AUTHORITY.—Nothing in this section, consistent with
          the Secretary of Homeland Security’s authority to refuse visas in accordance with law, shall be
          construed as affecting the authorities of the Secretary of State under the following provisions of
          law:

          (A) section 101(a)(15)(A) of the Immigration and Nationality Act (8 U.S.C. 1101(a)(15)(A)).

          (B) section 204(d)(2) of the Immigration and Nationality Act (8 U.S.C. 1154) (as it will take
          effect upon the entry into force of the Convention on Protection of Children and Cooperation in
          Respect to Inter-Country adoption).




Page 24                 An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                                                       Appendix A
                                                       Section 428 of the Homeland Security Act of 2002



 (C) section 212(a)(3)(B)(i)(IV)(bb) of the Immigration and Nationality Act (8 U.S.C. 1182(a)(3)(
 B)(i)(IV)(bb)).

 (D) section 212(a)(3)(B)(i)(VI) of the Immigration and Nationality Act (8 U.S.C.
 1182(a)(3)(B)(i)(VI)).

 (E) section 212(a)(3)(B)(vi)(II) of the Immigration and Nationality Act (8 U.S.C.
 1182(a)(3)(B)(vi)(II)).

 (F) section 212(a)(3)(C) of the Immigration and Nationality Act (8 U.S.C. 1182(a)(3)(C)).

 (G) section 212(a)(10)(C) of the Immigration and Nationality Act (8 U.S.C. 1182(a)(10)(C)).

 (H) section 212(f) of the Immigration and Nationality Act (8 U.S.C. 1182(f)).

 (I) section 219(a) of the Immigration and Nationality Act (8 U.S.C. 1189(a)).

 (J) section 237(a)(4)(C) of the Immigration and Nationality Act (8 U.S.C. 1227(a)(4)(C)).

 (K) section 401 of the Cuban Liberty and Democratic Solidarity (LIBERTAD) Act of 1996 (22
 U.S.C. 6034; Public Law 104–114).

 (L) section 613 of the Departments of Commerce, Justice, and DOS, the Judiciary and Related
 Agencies Appropriations Act, 1999 (as contained in section 101(b) of division A of Public Law
 105–277) (Omnibus Consolidated and Emergency Supplemental Appropriations Act, 1999); 112
 Stat. 2681; H.R. 4328 (originally H.R. 4276) as amended by section 617 of Public Law 106–553.

 (M) section 103(f) of the Chemical Weapon Convention Implementation Act of 1998 (112 Stat.
 2681–865).

 (N) section 801 of H.R. 3427, the Admiral James W. Nance and Meg Donovan Foreign Relations
 Authorization Act, Fiscal Years 2000 and 2001, as enacted by reference in Public Law 106–113.

 (O) section 568 of the Foreign Operations, Export Financing, and Related Programs
 Appropriations Act, 2002 (Public Law 107–115).

 (P) section 51 of the DOS Department Basic Authorities Act of 1956 (22 U.S.C. 2723).

 (d) CONSULAR OFFICERS AND CHIEFS OF MISSIONS.—




An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002    Page 25
Appendix A
Section 428 of the Homeland Security Act of 2002



          (1) IN GENERAL.—Nothing in this section may be construed to alter or affect—

          (A) the employment status of consular ofﬁcers as employees of the Department of State; or

          (B) the authority of a chief of mission under section 207 of the Foreign Service Act of 1980 (22
          U.S.C. 3927).

          (2) CONSTRUCTION REGARDING DELEGATION OF AUTHORITY.—Nothing in this
          section shall be construed to affect any delegation of authority to the Secretary of State by
          the President pursuant to any proclamation issued under section 212(f) of the Immigration
          and Nationality Act (8 U.S.C. 1182(f)), consistent with the Secretary of Homeland Security’s
          authority to refuse visas in accordance with law.

          (e) ASSIGNMENT OF HOMELAND SECURITY EMPLOYEES TO DIPLOMATIC AND
          CONSULAR POSTS.—

          (1) IN GENERAL.—The Secretary is authorized to assign employees of the Department to each
          diplomatic and consular post at which visas are issued, unless the Secretary determines that such
          an assignment at a particular post would not promote homeland security.

          (2) FUNCTIONS.—Employees assigned under paragraph (1) shall perform the following
          functions:

          (A) Provide expert advice and training to consular ofﬁcers regarding speciﬁc security threats
          relating to the adjudication of individual visa applications or classes of applications.

          (B) Review any such applications, either on the initiative of the employee of the Department or
          upon request by a consular ofﬁcer or other person charged with adjudicating such applications.

          (C) Conduct investigations with respect to consular matters under the jurisdiction of the
          Secretary.

          (3) EVALUATION OF CONSULAR OFFICERS.—The Secretary of State shall evaluate, in
          consultation with the Secretary, as deemed appropriate by the Secretary, the performance of
          consular ofﬁcers with respect to the processing and adjudication of applications for visas in
          accordance with performance standards developed by the Secretary for these procedures.

          (4) REPORT.—The Secretary shall, on an annual basis, submit a report to Congress that
          describes the basis for each determination under paragraph (1) that the assignment of an




Page 26                 An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                                                       Appendix A
                                                       Section 428 of the Homeland Security Act of 2002



 employee of the Department at a particular diplomatic post would not promote homeland
 security.

 (5) PERMANENT ASSIGNMENT; PARTICIPATION IN TERRORIST LOOKOUT
 COMMITTEE.—When appropriate, employees of the Department assigned to perform functions
 described in paragraph (2) may be assigned permanently to overseas diplomatic or consular posts
 with country-speciﬁc or regional responsibility. If the Secretary so directs, any such employee,
 when present at an overseas post, shall participate in the terrorist lookout committee established
 under section 304 of the Enhanced Border Security and Visa Entry Reform Act of 2002 (8 U.S.C.
 1733).

 (6) TRAINING AND HIRING.—

 (A) IN GENERAL.—The Secretary shall ensure, to the extent possible, that any employees of
 the Department assigned to perform functions under paragraph (2) and, as appropriate, consular
 ofﬁcers, shall be provided the necessary training to enable them to carry out such functions,
 including training in foreign languages, interview techniques, and fraud detection techniques, in
 conditions in the particular country where each employee is assigned, and in other appropriate
 areas of study.

 (B) USE OF CENTER.—The Secretary is authorized to use the National Foreign Affairs
 Training Center, on a reimbursable basis, to obtain the training described in subparagraph (A).

 (7) REPORT.—Not later than 1 year after the date of enactment of this Act, the Secretary and the
 Secretary of State shall submit to Congress—

 (A) a report on the implementation of this subsection; and

 (B) any legislative proposals necessary to further the objectives of this subsection.

 (8) EFFECTIVE DATE.—This subsection shall take effect on the earlier of—

 (A) the date on which the President publishes notice in the Federal Register that the President
 has submitted a report to Congress setting forth a memorandum of understanding between the
 Secretary and the Secretary of State governing the implementation of this section; or

 (B) the date occurring 1 year after the date of enactment of this Act.




An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002    Page 27
Appendix A
Section 428 of the Homeland Security Act of 2002



          (f) NO CREATION OF PRIVATE RIGHT OF ACTION.—Nothing in this section shall be
          construed to create or authorize a private right of action to challenge a decision of a consular
          ofﬁcer or other United States ofﬁcial or employee to grant or deny a visa.

          (g) STUDY REGARDING USE OF FOREIGN NATIONALS.—

                         (1) IN GENERAL.—The Secretary of Homeland Security shall conduct a study
                         of the role of foreign nationals in the granting or refusal of visas and other
                         documents authorizing entry of aliens into the United States. The study shall
                         address the following:

          (A) The proper role, if any, of foreign nationals in the process of rendering decisions on such
          grants and refusals.

          (B) Any security concerns involving the employment of foreign nationals.

          (C) Whether there are cost-effective alternatives to the use of foreign nationals.

          (2) REPORT.—Not later than 1 year after the date of the enactment of this Act, the Secretary
          shall submit a report containing the ﬁndings of the study conducted under paragraph (1) to the
          Committee on the Judiciary, the Committee on International Relations, and the Committee on
          Government Reform of the House of Representatives, and the Committee on the Judiciary, the
          Committee on Foreign Relations, and the Committee on Government Affairs of the Senate.

          (h) REPORT.—Not later than 120 days after the date of the enactment of this Act, the Director
          of the Ofﬁce of Science and Technology Policy shall submit to Congress a report on how the
          provisions of this section will affect procedures for the issuance of student visas.

          (i) VISA ISSUANCE PROGRAM FOR SAUDI ARABIA.—Notwithstanding any other
          provision of law, after the date of the enactment of this Act all third party screening programs in
          Saudi Arabia shall be terminated. On-site personnel of the Department of Homeland Security
          shall review all visa applications prior to adjudication.




Page 28                 An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                                                                                        Appendix B
                                                                                        Management Comments




An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002         Page 29

Appendix B
Management Comments




Page 30         An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002

                                                                                       Appendix B
                                                                                       Management Comments




An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002        Page 31

Appendix B
Management Comments




Page 32         An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002

                                                                                        Appendix B
                                                                                        Management Comments




An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002         Page 33

Appendix B
Management Comments




Page 34         An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002

                                                                                       Appendix B
                                                                                       Management Comments




An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002        Page 35

Appendix B
Management Comments




Page 36         An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002

                                                                                        Appendix B
                                                                                        Management Comments




An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002         Page 37

Appendix B
Management Comments




Page 38         An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002

                                                                                        Appendix B
                                                                                        Management Comments



 Attachment B: Site Selection Criteria

 This attachment contained “For Ofﬁcial Use Only” information. We withheld the attachment at
 the request of BTS.




An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002         Page 39
Appendix C
OIG Evaluation of Management Comments



          We evaluated BTS’ written comments and have made changes to our draft report where
          we deemed appropriate. Below is a summary of BTS’ written response to the report’s
          recommendations and our analysis of their response.

          The BTS said that the following statements in our draft report were incorrect.

          “DHS did not implement all of Section 428. Speciﬁcally, DHS did not comply with the
          requirement to have DHS personnel in place in Saudi Arabia to review visa applications by
          January 24, 2003. Temporary personnel arrived on August 31, 2003.”

          We received differing opinions regarding the effective date of the implementation of Section
          428 requirements. The OIG’s Ofﬁce of Counsel reviewed the Act and made a determination
          that the effective date was 60 days following the passage of the Act. The Act was passed on
          November 25, 2002, making the effective date January 24, 2003. We acknowledge that DHS
          was not formally established until March 1, 2003, making implementation of the Section 428
          requirements difﬁcult.

          BTS’ response also discussed an apparent “legislative error” regarding the effective date of
          Section 428(i), which required that DHS personnel review all visa applications in Saudi Arabia.
          Section 428(e)(8) set the effective date of the deployment of DHS personnel to diplomatic
          and consular posts, other that Saudi Arabia, as the earlier of either the signing of an MOU
          between DHS and DOS, signed on September 29, 2003, or one year after the passage of the
          Act, November 25, 2004. According to BTS, Section 428(e)(8) was “misnumbered.” BTS
          believes that “subsection” actually was intended to mean “section” and it applied to the entirety
          of Section 428, thereby implying that the effective date of Section 428(i) was not until after the
          September 29, 2003 signing of the MOU. We never heard this discussion during the course of
          our interviews with BTS ofﬁcials concerning the effective date. Further, this argument was never
          brought forward during our two meetings with the Under Secretary of BTS.

          Throughout its response to our draft report, BTS said that implementation of many of the Section
          428 requirements was contingent upon receiving dedicated funding for those requirements. We
          also recognize that many of the Section 428 requirements remain unfunded. We urge BTS to
          continue its aggressive efforts to identify its funding requirements to congress until this problem
          is resolved.




Page 40                 An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                                                                Appendix C
                                                                OIG Evaluation of Management Comments



 1. Develop a curriculum of homeland security training for consular ofﬁcers consistent with
 the requirement in Section 428 (b) (1) of the Act.

 BTS agreed that a formal training program for consular ofﬁcers was needed. VSU preliminarily
 identiﬁed three core areas of instruction that will include interviewing techniques, fraudulent
 document training and analysis, and counter-terrorism related training.

 BTS’ plan to develop a curriculum to train consular ofﬁcers is responsive to this
 recommendation.

 Recommendation 1 – Resolved – Open.

 2. Develop a training program for VSOs that includes foreign languages, country studies,
 and interview and fraud detection techniques.

 BTS agreed with the need to provide VSO speciﬁc training to ofﬁcers assigned to VSUs.
 BTS is developing a VSO training curriculum that includes courses in country studies, life
 and operations at overseas posts, a review of counterterrorism methods, formal visa security
 procedures, and a review of interview and fraud document techniques as a refresher to the
 extensive training these ofﬁcers already have received. BTS also agrees, though funding has
 not been provided, that language training for VSOs was important and that it will be provided as
 funding permits. Further, BTS said that one of the criteria that it will use to select future VSOs
 will be language skills.

 BTS’s plan to develop the VSO training curriculum is responsive to this recommendation. With
 respect to language training, law enforcement ofﬁcers and intelligence analysts assigned to a
 country in which they cannot speak or read the language cannot be as effective as possible. As
 we observed in Saudi Arabia, the VSOs were most effective when they could converse with host-
 country immigration and security ofﬁcials and read traveler documents. Therefore, BTS should
 continue to pursue funding to support a VSO language training program.

 Recommendation 2 – Resolved – Open.




An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002   Page 41
Appendix C
OIG Evaluation of Management Comments



          3. In coordination with DOS, develop performance standards to evaluate consular ofﬁcers.

          BTS said that it will establish appropriate performance standards for DOS’ use in evaluating
          consular ofﬁcers. This effort is responsive to the recommendation. However, we do not agree
          that work on developing the performance standards needs to be delayed until the deployment
          of VSOs to the next ﬁve sites. BTS should begin this effort immediately with the assistance of
          DOS ofﬁcials.

          Recommendation 3 – Resolved – Open.

          4. Develop written criteria for assigning VSOs to other countries.

          BTS developed site selection criteria that consider a range of quantitative and qualitative
          information to assess the overall requirement for a VSU at a given location. Further, it developed
          a site assessment process that involves an on-site visit and consultations with senior ofﬁcials at
          the posts, including the Ambassador, the Deputy Chief of Mission, the Regional Security Ofﬁcer,
          the FBI Attaché, and Department of Defense. Using this process, BTS has selected ﬁve posts for
          the next assignment of VSOs.

          The development of site selection criteria and the process for making site assessments are
          responsive to this recommendation. No further action is required.

          Recommendation 4 – Closed.

          5. Assign responsibility to develop and publish the report to Congress required by Section
          428(e)(4).

          BTS submitted the annual report for OMB review on June 6, 2004. As of August 1, 2004, the
          annual report has not been presented to congress. BTS said that it will assign responsibility for
          drafting future annual reports.

          BTS’ actions and plans are responsive to this recommendation. However, the draft annual
          report did not meet the full intent of the Section 428 (e)(1) requirement, which “authorizes
          the assignment of VSOs to diplomatic and consular posts at which visas are issued unless the
          Secretary determines that such an assignment at a particular post would not promote
          homeland security [emphasis added].” Section 428(e)(4) requires a report “that describes the
          basis for each determination under paragraph (1) that the assignment of an employee of the
          Department at a particular diplomatic or consular post would not promote homeland security.”




Page 42                 An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                                                                Appendix C
                                                                OIG Evaluation of Management Comments



 While the draft report describes current visa security operations and discusses the general criteria
 used to select future VSU sites, it does not describe the speciﬁc information BTS used to select
 the next ﬁve VSU sites or, for example, why these sites promote homeland security more than
 other sites. Further, it does not describe why other sites were not selected.

 Also, while not required by Section 428, BTS missed an opportunity to present to congress
 the costs of deploying VSOs to the ﬁve selected sites. BTS contends throughout its response
 to our draft report that funding is a major impediment to fully complying with all Section 428
 requirements. Yet, in its report to congress, BTS does not describe the details of this signiﬁcant
 funding requirement. We strongly suggest that before the ﬁnal annual report is issued to
 congress that BTS address these two concerns.

 Recommendation 5 – Resolved – Open.

 6. Conduct a study of the personnel management techniques used by other agencies with a
 global workforce and evaluate ways to facilitate the overseas rotations of DHS employees.

 BTS said that DHS currently is conducting a comprehensive assessment of its international
 operations to determine the best alignment and support of the department’s global mission.

 This action is responsive to our recommendation. The assessment should include an overseas
 rotation plan for personnel that promotes the timely and equitable assignment of qualiﬁed
 personnel to overseas sites and their subsequent reassignment to the United States.

 Recommendation 6 – Resolved – Open.

 7. Discontinue the practice of ﬁlling the VSO positions with temporarily assigned ofﬁcers
 and move toward ﬁlling the positions with permanently assigned ofﬁcers.

 BTS agreed to discontinue its reliance on temporarily assigned staff. Until dedicated funding for
 the VSO program is secured, BTS plans to work with DHS and OMB to reprogram
 FY 2004 funds to enable the program to hire permanent assigned staff.

 BTS’ plan to discontinue the use of temporarily assigned ofﬁcers is responsive to this
 recommendation.

 Recommendation 7 – Resolved – Open.




An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002   Page 43
Appendix C
OIG Evaluation of Management Comments



          8. Establish criteria for selecting VSOs based on required experience and skill sets to
          support the visa security operation.

          BTS developed a stafﬁng model for VSUs and selection criteria for VSOs.16 BTS’ actions are
          responsive to this recommendation and no further action is required

          Recommendation 8 – Closed.

          9. Establish a funding mechanism to ensure that the visa security operations receive all
          required support and that DOS is promptly reimbursed for the support that it provides.

          BTS said that it has been aggressively pursuing dedicated funding for the VSU program and that
          a current budget reprogramming plan is with OMB awaiting approval.

          BTS’ on-going efforts to obtain funding are responsive to this recommendation. BTS noted that
          its account with DOS for the Saudi Arabia operation is now current. This status is a marked
          improvement since our visit to Saudi Arabia in March 2004.

          Recommendation 9 – Resolved – Open.

          10. Propose a technical correction to Section 428(i) to align it with Section 428(e) and
          permit DHS to review only those applications with homeland security interest in Saudi
          Arabia.

          BTS said that it does not plan to propose an amendment to modify Section 428(i). BTS believes
          that reviewing all visa applications is worthwhile and that the process to exclude those visa
          applications without homeland security interest would be too time consuming.

          While BTS non-concurred with this recommendation, we agree with BTS’ rationale for not
          seeking to amend the legislation. At our exit conference, BTS ofﬁcials explained that because
          of the improvements in data processing made since our visit to Saudi Arabia in March 2004,
          separating applications in Saudi Arabia before review will reduce, not increase, the efﬁciency
          and effectiveness of the VSOs. Further, they said that they intend to review all visa applications
          in other countries as the VSU program expands even though not required by Section 428. In
          addition, BTS ofﬁcials believe that there are additional law enforcement beneﬁts that can be
          gained by reviewing all visa applications. This recommendation requires no further action.

          Recommendation 10 – Closed.

16
   Based on additional information provided by BTS, we amended our draft report where we discuss the experience levels of the VSOs
initially assigned to Saudi Arabia.



Page 44                    An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                                                                Appendix C
                                                                OIG Evaluation of Management Comments



 11. Evaluate the possible beneﬁt of analyzing the existing visa applications in DOS ﬁles of
 young Saudi males who were issued visas in the two year period prior to
 September 11, 2001. BTS should coordinate with DOS, the FBI, and other federal agencies,
 as necessary, before making a determination about whether, or how, to proceed to analyze
 the applications.

 BTS agrees that there may be value in reviewing pre-September 11 visa applications. However,
 it is waiting to obtain enhanced access to the Consular Consolidated Database (CCD). BTS does
 not know when it may begin the review.

 BTS’ intention to review the visa applications is responsive to this recommendation. However,
 we do not understand the need to delay the review pending enhanced access to CCD. BTS
 does not deﬁne the meaning of “enhanced access” or how this access will facilitate the review
 process. CCD contains only a portion of the data from the visa application. Other potentially
 valuable information is available only on the actual visa application. Therefore, a comprehensive
 review would require reviewing the actual visa applications. BTS should begin the review of
 these visa applications as soon as possible. Further delays will decrease the potential homeland
 security value of the information that they contain.

 Recommendation 11 – Resolved – Open.

 12. Develop an interface between BTS and DOS computer systems that permits a fast
 and efﬁcient method to automate the visa security name check process and eliminate the
 duplicative data entry for database checks.

 BTS agreed that the data entry process needed to be streamlined and has developed an interim
 solution to reduce the amount of time VSOs must spend entering data. In addition, BTS plans to
 secure enhanced access to CCD for current and future VSU sites.

 BTS’ interim and long range plans to streamline the data entry process is responsive to this
 recommendation.

 Recommendation 12 – Resolved – Open.




An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002   Page 45
Appendix D
Recommendations



                   Recommendation 1: Develop a curriculum of homeland security training for
                   consular ofﬁcers consistent with the requirement in Section 428 (b) (1) of the Act.

                   Recommendation 2: Develop a training program for VSOs that includes foreign
                   languages, country studies, and interview and fraud detection techniques.

                   Recommendation 3: In coordination with DOS, develop performance standards
                   to evaluate consular ofﬁcers.

                   Recommendation 4: Develop written criteria for assigning VSOs to other
                   countries.

                   Recommendation 5: Assign responsibility to develop and publish the report to
                   Congress required by Section 428(e)(4).

                   Recommendation 6: Conduct a study of the personnel management techniques
                   used by other agencies with global workforces and evaluate ways to facilitate the
                   overseas rotations of DHS employees.

                   Recommendation 7: Discontinue the practice of ﬁlling the VSO positions
                   with temporarily assigned ofﬁcers and move toward ﬁlling the positions with
                   permanently assigned ofﬁcers.

                   Recommendation 8: Establish criteria for selecting VSOs based on required
                   experience and skill sets to support the visa security operation.

                   Recommendation 9: Establish a funding mechanism to ensure that the visa
                   security operations receive all required support and that DOS is promptly
                   reimbursed for the support that it provides.

                   Recommendation 10: Propose a technical correction to Section 428(i) to align
                   it with Section 428(e) and permit DHS to review only those applications with
                   homeland security interest in Saudi Arabia.

                   Recommendation 11: Evaluate the possible beneﬁt to be gained by analyzing
                   the existing visa applications in DOS ﬁles of young Saudi males who were issued
                   visas in the two year period prior to September 11, 2001. BTS should coordinate
                   with DOS, the FBI, and other federal agencies, as necessary, before making a
                   determination about whether, or how, to proceed to analyze the applications.




Page 46           An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
                                                                                                Appendix D
                                                                                                Recommendations



 Recommendation 12: Develop an interface between BTS and DOS computer systems that
 permits a fast and efﬁcient method to automate the visa security name check process and
 eliminate the duplicative data entry for database checks.




An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002            Page 47
Appendix E
Major Contributors to this Report



                     Douglas Ellice, Senior Inspector

                     (202) 254-4181

                     Douglas.Ellice@dhs.gov


                     Kenneth McKune, Senior Inspector

                     (202) 254-4220

                     Ken.McKune@dhs.gov





Page 48             An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002

                                                                                                Appendix F
                                                                                                Report Distribution



                   Department of Homeland Security

                   Secretary
                   General Counsel
                   Deputy Secretary
                   Chief of Staff
                   DHS Audit Liaison
                   ICE Liaison
                   Director, Ofﬁce of International Affairs
                   Commissioner, US Customs and Border Protection
                   Assistant Secretary, US Immigration and Customs Enforcement


                   Department of State

                   Assistant Secretary for Consular Affairs
                   Assistant Inspector General for Inspections


                   Ofﬁce of Management and Budget

                   Homeland Bureau Chief
                   DHS OIG Budget Examiner


                   Congress

                   Congressional Oversight and Appropriations Committees as appropriate




An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002                Page 49
Page 50   An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002
An Evaluation of DHS Activities to Implement Section 428 of the Homeland Security Act of 2002   Page 51
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
